No. 19-1269
IN THE

Supreme Court of the United States
TCL COMMUNICATION TECHNOLOGY HOLDINGS LIMITED;
TCT MOBILE LIMITED; TCT MOBILE (US) INC.,
Petitioners,
v.
ERICSSON, INC.; TELEFONAKTIEBOLAGET LM
ERICSSON,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

REPLY BRIEF FOR PETITIONERS

STEPHEN S. KORNICZKY
MARTIN R. BADER
MATTHEW W. HOLDER
SHEPPARD MULLIN RICHTER
& HAMPTON LLP
12275 El Camino Real
Suite 200
San Diego, CA 92130
(858) 720-8900

SETH P. WAXMAN
Counsel of Record
THOMAS G. SAUNDERS
SAMUEL M. STRONGIN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave. NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

ADDITIONAL COUNSEL LISTED ON INSIDE COVER

KARIN DOUGAN VOGEL
SHEPPARD MULLIN RICHTER
& HAMPTON LLP
501 West Broadway
19th Floor
San Diego, CA 92101
(619) 338-6500

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ........................................... ii
INTRODUCTION .............................................................. 1
ARGUMENT ....................................................................... 1
I.

THIS CASE IS AN IDEAL VEHICLE TO
ADDRESS THE QUESTION PRESENTED ...................... 1
A. TCL Did Not Forfeit Its Argument................... 1
B. There Is No Jurisdictional Barrier To
Review .................................................................... 3

II. THE
QUESTION
PRESENTED
IS
EXTREMELY IMPORTANT............................................. 4
III. THE DECISION BELOW IS INCORRECT ....................... 8
CONCLUSION ................................................................. 12

(i)

ii
TABLE OF AUTHORITIES
CASES
Page(s)
Great-West Life & Annuity Insurance Co. v.
Knudson, 534 U.S. 204 (2002) ..................................... 9
Montanile v. Board of Trustees of National
Elevator Industry Health Benefit Plan,
136 S. Ct. 651 (2016) ..................................................... 9
Willard v. Tayloe, 75 U.S. (8 Wall.) 557 (1870) ............. 11
Yee v. City of Escondido, 503 U.S. 519 (1992) ................. 2
DOCKETED CASES
TCL Communication Technology Holdings,
Ltd. v. Telefonaktiebolaget LM Ericsson, et
al., No. 8:14-cv-00341 (C.D. Cal.).............................. 10
CONSTITUTIONAL AND STATUTORY
PROVISIONS
U.S. Const. amend. VII ...................................................... 4
28 U.S.C. § 1295 ................................................................... 7
29 U.S.C. § 1132 (1994 ed.) ................................................. 9

INTRODUCTION
Ericsson’s brief is an exercise in distraction. Ericsson understandably would prefer not to discuss the
merits of the Federal Circuit’s deeply flawed Seventh
Amendment decision. That ruling broke with longstanding precedent to create a jury-trial right in a case
seeking the equitable relief of specific performance.
The Federal Circuit applied this erroneous rule, moreover, to a critical part of the modern economy—the obligation to license standard-essential patents (SEPs) on
fair, reasonable, and nondiscriminatory (FRAND)
terms. As underscored by the outpouring of amicus
support from leading companies, organizations, and
scholars, it is extremely important that this Court review and reverse the Federal Circuit’s erroneous constitutional ruling and restore the traditional division of
responsibility between judge and jury. None of Ericsson’s arguments offers a sound reason to decline review.
ARGUMENT
I.

THIS CASE IS AN IDEAL VEHICLE TO ADDRESS THE
QUESTION PRESENTED
A. TCL Did Not Forfeit Its Argument

In its first attempt to manufacture a vehicle problem, Ericsson argues (at 15) that TCL never referred to
the release payment as “equitable consideration” in the
Federal Circuit. But the notion that TCL forfeited review of the question presented is absurd.
TCL explained even before trial that “a release
payment is one of the contract terms Ericsson wants
the Court to impose as part of its [proposed licenses].

2
In other words, the making of the release payment is
part of the performance which Ericsson wants the
Court to require as part of its mandatory injunction.”
C.A.J.A. 38849 (internal citations omitted). On appeal,
TCL continued to argue that the release payment was
simply “a term of the injunction which completed the
parties’ new license.” C.A. Resp. Br. 27. TCL explained that the relief it sought for its FRAND claims
was “the remedy of specific performance,” which “is
equitable in nature.” Id. at 19. “Such specific performance,” TCL continued, would involve “a setting of the
FRAND terms and conditions in order to complete the
parties’ license.” Id. at 21. The release payment did
not change the equitable nature of the relief because it
was just “a term in Ericsson’s … proposals,” id. at 25,
and thus an obligation established by the court when
“creating a new contractual relationship (a license),” id.
at 26. The release payment thus “retroactively restore[d] to Ericsson that which it would have already
received if the FRAND terms and conditions have previously been set, and a license not delayed.” Id. at 27.
This is the same argument TCL made in its petition. The release payment for worldwide sales without
any adjudication of infringement or invalidity arose—
and only could have arisen—as a term of the proposed
FRAND license being newly created in equity to remedy Ericsson’s failure to offer a proper license from the
outset. It was thus part of the specific performance ordered by the court and quintessentially equitable.
Slight variations in the articulation of this basic position, if any, are irrelevant, because “[o]nce a federal
claim is properly presented, a party can make any argument in support of that claim.” Yee v. City of Escondido, 503 U.S. 519, 534 (1992).

3
Moreover, contrary to Ericsson’s position (at 18),
the Federal Circuit’s failure squarely to address TCL’s
argument is a reason to grant review, not deny it. The
Federal Circuit dismissed TCL’s argument as elevating
form over substance. App. 20a-21a. It thus passed on
the argument, which was pressed below, without grappling with the fact that the release payment was, in
substance, uniquely equitable. This does not counsel
against review, but rather reinforces that the Federal
Circuit engaged in a flawed analysis while setting a nationwide rule for all cases within its exclusive jurisdiction.
B. There Is No Jurisdictional Barrier To Review
Ericsson’s jurisdictional argument is equally meritless. Ericsson confuses the original basis for federal
question jurisdiction with the issues that were tried after Ericsson chose to stay all patent claims in the case.
The district court held that it had jurisdiction over all
claims in the original complaint, including TCL’s request to impose a FRAND license, because TCL’s declaratory judgment claim anticipated an infringement
suit by Ericsson. C.A.J.A. 742-743. In fact, shortly after TCL’s complaint was filed, Ericsson sued TCL for
infringement in Texas. C.A.J.A. 60779-60797. The
Texas case was later transferred and consolidated with
TCL’s action in California. App. 6a; C.A.J.A. 6640,
6650.
Before trial, however, the parties agreed to stay all
of the patent claims in the consolidated cases. The district court explained that “the only claims tried were
the parties’ respective claims for breach of contract and
declaratory relief regarding Ericsson’s compliance with
its FRAND obligation and declaratory relief for determination of FRAND rates. The parties’ respective

4
claims regarding infringement, invalidity, and other
substantive patent defenses were previously stayed.”
C.A.J.A. 29 n.3.1
Contrary to Ericsson’s argument (at 26-27), there is
no contradiction between the district court having federal question and supplemental jurisdiction over the
original California complaint because a portion of that
complaint anticipated a patent infringement suit, and
the district court later concluding that, after all patent
claims were stayed, the remaining claims actually tried
were equitable issues on which Ericsson was not entitled to a jury trial.
The only question regarding the district court’s authority arises from the Federal Circuit’s ruling. Neither Ericsson nor the Federal Circuit ever explains
how, if the district court was not acting in equity, it had
authority to order a worldwide payment that included
backward-looking royalties for sales outside of the
United States without any determination of infringement or patent validity. That relief never could have
been awarded in a U.S. infringement action. It was a
creation of equity, not an action “at common law.” U.S.
Const. amend. VII.
II. THE QUESTION PRESENTED IS EXTREMELY IMPORTANT
Ericsson’s attempt to downplay the importance of
the question presented fails. As TCL explained (Pet.
27-30), and five amicus briefs have reinforced, a right to
have juries set the terms of worldwide FRAND licens1

The claims that were tried (breach of contract and declaratory judgment) were asserted in both the original California action
and as counterclaims in the transferred Texas action, for which
Ericsson has never disputed federal jurisdiction.

5
es would profoundly upset the division of responsibility
between judge and jury, to the detriment of numerous
industries and the public.
The Federal Circuit was not interpreting an obscure provision of law that Congress or an agency could
change. It rendered a constitutional decision that now
binds all courts within its exclusive jurisdiction. Short
of a constitutional amendment, only this Court can
remedy the Federal Circuit’s erroneous interpretation
of the Seventh Amendment.
The outpouring of amicus support from major companies, organizations across multiple industries, and 20
leading scholars underscores the stakes here. Standards allow products created by different companies to
function together and are ubiquitous in the modern
economy. From payment systems, to communications
networks, to automobiles, substantial portions of the
economy depend on standards. Incorporation of a patented technology into a standard gives patent owners
significant leverage to “hold up” implementers’ use of a
standard until the implementer agrees to pay excessive
royalties. Pet. 28. These excessive royalties increase
the price of end products, reduce the incentive to use
standards, and cause firms to allocate resources towards getting their patents deemed essential to a
standard, even if those particular patents are not the
most technically optimal. Pet. 28-29. FRAND commitments blunt this risk of excessive royalties. Pet. 2930; App. Ass’n Amicus Br. 19-20.
The right to seek specific performance in equity
provides an important tool to enforce FRAND commitments. Improperly injecting the jury into that process threatens to increase the cost and uncertainty of
resolving FRAND disputes. The “tremendous unpre-

6
dictability of allowing juries to set complex contractual
terms[] will grant SEP holders more leverage than
they already hold to extract excessive royalties.” FSA
Amicus Br. 20-21; see also Pet. 29-30 (larger awards at
jury trials than bench trials). Indeed, Ericsson’s own
internal IP strategy document notes “[t]he possibility
of large awards, and the unpredictability of jury trials”
in the United States. C.A.J.A. 62735.
Black box jury verdicts also stunt the development
of the law. HTIA Amicus Br. 15; FSA Amicus Br. 2021; u-blox Amicus Br. 7-8. “The vast majority of payments for SEPs result from negotiated licenses, not litigation, but the judicial system provides the backdrop
against which those negotiations are conducted.”
HTIA Amicus Br. 18-19. “[E]liminating judicial guidance as to acceptable FRAND methodologies will make
it more difficult for parties to engage in good-faith negotiations.” u-blox Amicus Br. 7.
Ericsson misses the point when it argues (at 14)
that the Framers decided to “trust[]” juries. TCL is
not arguing that there is no Seventh Amendment right
because juries produce larger verdicts. There is no
Seventh Amendment right because the right to a jury
trial in actions “at law” does not extend to an award of
specific performance in equity. Indeed, the idea of a
jury creating a worldwide license imposed on the parties by injunction would have seemed bizarre to the
Framers. The relative differences between judge and
jury merely underscore the practical importance of
correctly interpreting the Seventh Amendment, and
thus the acute need for this Court’s review.
Ericsson’s suggestion (at 17) to wait for a circuit
split should be rejected. The Federal Circuit is not like
other courts of appeals. While FRAND disputes some-

7
times arise in the regional circuits, the Federal Circuit
has nationwide jurisdiction over any suit in which the
action or a compulsory counterclaim arises under the
Patent Act. 28 U.S.C. § 1295(a)(1). Any patent owner
can therefore put itself under the Federal Circuit’s jurisdiction merely by asserting an infringement claim—
even where, as here, it stays that claim. For the same
reason, Ericsson’s contention (at 17-18) that “the issue
is [not] recurring” because no other circuit has “address[ed] the question” misses the key point. The Federal Circuit’s decision has immediate, nationwide consequences by virtue of the court’s broad jurisdiction.
Even without a split, this Court should grant review
and reverse the Federal Circuit, as it regularly does.
Moreover, far from diminishing the importance of the
question presented, the fact that courts resolving
FRAND disputes through bench trials “have not generally confronted a Seventh Amendment challenge to
their conduct” is “evidence of just how far the Federal
Circuit’s decision here departs from the norm.” Legal
Scholars Amicus Br. 13; see also App. Ass’n Amicus Br.
22-23.
Finally, Ericsson argues (at 22 n.7) that the question presented does not matter because a party can
simply get a jury trial by asserting a patent claim. But
the litigation of a patent claim in an action at law cannot
produce the type of worldwide resolution achieved in
this case. Equitable relief provides an important tool
that allows FRAND disputes to be resolved much more
efficiently and comprehensively. The Federal Circuit’s
decision threatens the viability of that tool because
prospective licensees will be reluctant to file lawsuits to
enforce the FRAND commitment if the patent owner
can have a jury set the license terms, without even having to litigate infringement or invalidity. If Ericsson’s

8
prediction that the constitutional issue will not arise
with any frequency comes to pass, it will be precisely
because the Federal Circuit’s decision has vitiated an
important mechanism for achieving resolution of
FRAND disputes.
III. THE DECISION BELOW IS INCORRECT
Ericsson’s argument on the merits merely repeats
the Federal Circuit’s errors. Ericsson contends (at 3031) the release payment was compensation for past patent infringement. But as noted, a U.S. court in an action at law never could have awarded such relief. As
Ericsson acknowledged in the district court, “[a] jury
does not determine damages for patent infringement
unless it has already determined that the plaintiff has
proven its claim for infringement of a valid and enforceable patent.” C.A.J.A. 36678; see also Legal
Scholars Amicus Br. 5. Here, those prerequisites to an
award of patent damages were never adjudicated.2 Nor
were other defenses such as the statute of limitations
or marking requirements. Pet. 20.
Moreover, an action at law in the United States
never could have awarded damages for worldwide sales
and infringement of foreign patents. Ericsson argues
(at 32) that “re-labelling” the “same relief” as “specific
performance” would not cure that problem. But the
2

Like the Federal Circuit, Ericsson erroneously assumes (at
30-31) that TCL’s use of the 2G, 3G, and 4G standards would dispense with the necessary inquiries in a traditional patent case. But
TCL would have been entitled to challenge the validity of Ericsson’s patents if the case had proceeded as a patent suit. Also, the
extent to which Ericsson’s patents were actually essential was
contested, C.A.J.A. 45049, 56950, and the court made no finding
that any specific patents were infringed, C.A.J.A. 56433.

9
point is that it was not the “same relief.” The district
court was able to achieve a worldwide resolution of the
dispute between Ericsson and TCL involving the licensing of hundreds of U.S. and foreign patents precisely because it was not awarding patent damages, but
rather creating a new license as a matter of equity to
put TCL in the position it would have been if Ericsson
had honored its FRAND commitments from the outset.
That equitable agreement, like a contract, reached
worldwide in a way that a patent infringement action
never could. Indeed, the release payment originated as
a contractual term Ericsson proposed to TCL in the
parties’ license negotiations. App 7a.
Ericsson’s reliance on Great-West Life & Annuity
Insurance Co. v. Knudson, 534 U.S. 204 (2002), is misplaced. There, an insurance company that had paid an
accident victim’s medical expenses was seeking to enforce its right under an ERISA plan to receive a portion of the settlement paid by a third party. Id. at 207208. The party alleging breach was thus seeking to be
paid money owed under an existing agreement. This
Court held that such a request for payment of funds for
breach of an existing agreement was not “equitable relief” within the meaning of ERISA, 29 U.S.C.
§ 1132(a)(3) (1994 ed.). See 534 U.S. at 210-218.3
This case is the opposite of Great-West. TCL’s request for damages dropped out before trial, and with it
went the last remaining basis for a jury trial. At trial,
TCL was not asking that Ericsson pay TCL money for
3

Montanile v. Board of Trustees of National Elevator Industry Health Benefit Plan, 136 S. Ct. 651 (2016), on which Ericsson
also relies (at 29), merely applied Great-West to another insurance
company seeking to recover from an accident victim, 136 S. Ct. at
655.

10
Ericsson’s breach of its obligations; it was asking the
court to impose in equity the license that Ericsson was
obligated to have offered from the outset. The only
payments to be made were thus payments from TCL to
Ericsson as equitable consideration for the creation of
that new license in equity. And the only claims that
would have enabled Ericsson to get legal relief from
TCL—the two patent infringement claims—had previously been stayed at Ericsson’s election, and thus were
not tried.
Ericsson tries to muddy the waters by arguing (at
31) that TCL referred to the release payment as “damages” for past unlicensed sales. But that imprecise
statement was made more than a year before the dismissal of TCL’s own damages claims gave rise to the
Seventh Amendment question now presented. It does
not detract from the district court’s own explanation,
upon entering the amended judgment, that (1) it “never
decided the infringement claims”; (2) “there was never
a predicate for payment … under … Ericsson’s claims
for infringement”; (3) Ericsson “inaccurately suggests
that the payment constitutes damages”; and (4) “the
Court did not intend to characterize the release payment as damages.” C.A.J.A. 56433 (internal quotation
marks omitted). Indeed, even after the Federal Circuit’s decision, Ericsson told the district court that “a
release payment is not the same as patent infringement
damages but, rather, is an estimation of the benefit conferred to TCL that would be paid to Ericsson under a
FRAND license.” Dkt. 1983-1 at 9, TCL Commc’n
Tech. Holdings, Ltd. v. Telefonaktiebolaget LM Ericsson, et al., No. 8:14-cv-00341 (C.D. Cal. Jan. 31, 2020).
Ericsson’s attempt (at 33-34) to draw a sharp distinction between future and past benefits is also una-

11
vailing. The license created in equity was fully integrated, and reflected Ericsson’s decision to condition
the conferral of future benefits under a FRAND license
on the payment of a backward-looking royalty. Just as
the purchaser in Willard v. Tayloe, 75 U.S. (8 Wall.)
557 (1870), was required in equity to tender all payments “past due” to receive the benefit it sought, id. at
574, the district court was merely requiring TCL to
tender all royalty payments, past and future, that it
would have owed under the license to receive the ongoing benefit of Ericsson’s specific performance.
Finally, unable to defend the Federal Circuit’s decision on its own terms, Ericsson argues (at 20-21, 32)
that even if the relief awarded was equitable, it was
still entitled to a jury trial due to overlap with its infringement claims. The Federal Circuit did “not address” this alternative argument, App. 17a n.6, but it is
easily rebutted. Ericsson chose to stay its infringement
claims and instead proceed to trial on the FRAND
claims that sought equitable relief. Having agreed to
litigate in that order, Ericsson cannot now complain
about the order in which the claims were adjudicated.
Ericsson’s argument (at 25) that the Federal Circuit
“rejected TCL’s implication of waiver” is puzzling. The
Federal Circuit merely said Ericsson continued asking
for a jury trial, and thus an earlier statement did not
waive its right. App. 25a-26a. But since the Federal
Circuit did not address Ericsson’s alternative argument, it necessarily did not say that Ericsson could insist it has a Seventh Amendment right to litigate its
legal claims first while simultaneously deciding that only the equitable issues would proceed to trial.

12
Ericsson’s merits arguments should be addressed
at the merits stage and do not detract from the urgent
need for review.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
STEPHEN S. KORNICZKY
MARTIN R. BADER
MATTHEW W. HOLDER
SHEPPARD MULLIN RICHTER
& HAMPTON LLP
12275 El Camino Real
Suite 200
San Diego, CA 92130
(858) 720-8900
KARIN DOUGAN VOGEL
SHEPPARD MULLIN RICHTER
& HAMPTON LLP
501 West Broadway
19th Floor
San Diego, CA 92101
(619) 338-6500
AUGUST 2020

SETH P. WAXMAN
Counsel of Record
THOMAS G. SAUNDERS
SAMUEL M. STRONGIN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave. NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

